Office of Inspector General
U.S. Department of Labor
Office of Audit




                               Audit of
                Madison County Working Connection’s
                 Competitive Welfare-to-Work Grant
              October 1, 1999 Through September 30, 2001




                                     Report Number: 04-02-001-03-386
                                     Date Issued:   March 26, 2002
Audit of Madison County’s Competitive Welfare-to-Work Grant



                                                TABLE OF CONTENTS


ACRONYMS ..................................................................................................................................iii

EXECUTIVE SUMMARY .............................................................................................................1

BACKGROUND .............................................................................................................................4

OBJECTIVE, SCOPE AND METHODOLOGY ............................................................................7

RESULTS OF AUDIT.....................................................................................................................9

     Personnel Costs of $1,837 Were Improper ...............................................................................9

     Equipment Purchases of $43,553 Were Unallowable ................................................................9

     Consultants’ Costs Were Improperly Charged to the Program ...............................................10

     Several Contractors’ Costs Totaling $205,835 are Questionable ............................................16

     Fourteen Percent of Sampled Participants Were Ineligible .....................................................19

     Expenditure Reports Were Not Prepared In
      Accordance With Requirements ............................................................................................20

     Program Performance Goals Have Not Been Met...................................................................20

     Placement Costs Are High .......................................................................................................21

     Conclusion ...............................................................................................................................21

RECOMMENDATIONS...............................................................................................................22

MADISON COUNTY’S COMMENTS
ON THE DRAFT REPORT...........................................................................................................22

OIG’S CONCLUSIONS................................................................................................................23

ATTACHMENT A: MADISON COUNTY’S RESPONSE AND OIG’S
              CONCLUSION ON SPECIFIC QUESTIONED COSTS

EXHIBIT 1:                       SUMMARY OF QUESTIONED COSTS

EXHIBIT 2:                       TEXT OF MADISON COUNTY’S RESPONSE
                                 TO THE DRAFT AUDIT REPORT

                                                                                                                                              ii
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant




                                              ACRONYMS


CFR              -       Code of Federal Regulations
COARMM           -       Coalition On At-Risk Minority Males
DOL              -       U.S. Department of Labor
ETA              -       Employment and Training Administration
FSR              -       Financial Status Report
FY               -       Fiscal Year
HHS              -       U.S. Department of Health and Human Services
HRB              -       Huntsville Rehabilitation Foundation
JTPA             -       Job Training Partnership Act
MOU              -       Memorandum of Understanding
OIG              -       Office of Inspector General
OMB              -       Office of Management and Budget
TANF             -       Temporary Assistance for Needy Families
WIA              -       Workforce Investment Act
WtW              -       Welfare-to-Work




                                                                        iii
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant




                                    EXECUTIVE SUMMARY


On October 1, 1999, the Madison County Commission, located in Huntsville, Alabama, received
a competitively procured Welfare-to-Work (WtW) grant from the U.S. Department of Labor
(DOL), Employment and Training Administration (ETA). The purpose of the $4,714,613 grant
was to place 640 non-custodial parents in unsubsidized employment, over a 30- month period.

The Office of Inspector General (OIG) received a complaint alleging that Madison County had
not complied with Federal requirements. In response to the complaint, we audited financial and
program activities related to Madison County’s WtW grant, for the period October 1, 1999
through September 30, 2001.


                          We identified a variety of financial, compliance and program delivery
 Our Findings             concerns and have questioned $358,229 charged to the WtW grant. (See
                          Exhibit 1.) Questioned grant expenditures include:

        •    personnel costs totaling $1,837 incurred prior to beginning of grant;

        •    equipment purchases costing $43,553 that were improperly procured;

        •    consultants’ charges totaling $93,133 that were paid in excess of limitations, paid
             before the contracts were effective, were inadequately supported and included
             payments for services not authorized by the grant agreement or within the scope of
             their contracts;

        •    contractors’ costs of $205,835 in payment of services designated as donations,
             involving transactions between related organizations, for billings that were not
             adequately supported, services performed without agreements, activities not
             authorized in the grant agreements or scopes of their contracts, activities that did not
             benefit WtW program participants; and

        •    costs of $13,871 related to participants who did not meet program eligibility criteria
             or whose eligibility was not adequately documented.


We also found that financial accountability over the grant was unsatisfactory. Financial Status
Reports (FSRs) were not prepared on an accrual basis, as required by ETA.

The program’s effectiveness is also a concern. In addition to our concerns over its stewardship
of the grant, we believe Madison County substantially overestimated the number of eligible




U.S. Department of Labor - Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant



program participants who were available to be served. Consequently, participants have not been
served or placed in unsubsidized employment at a rate consistent with the grant’s goals.

As of September 30, 2001, with 80 percent of the grant’s 30-month period of performance
completed, Madison County reported it had served only 205 participants, and placed in jobs only
about 5 percent (33 of 640) of the participants that it initially proposed serving. Consequently,
the average cost for each placement had risen from $7,400 proposed when ETA awarded
Madison County the grant, to $38,100.


                              The severity and scope of problems caused us to question Madison
 Recommendations County’s capability of operating an effective program. We are also
                              concerned with the grant’s poor performance. Madison County’s
award was based on its representation that it could effectively serve a much larger population of
welfare recipients, at a significantly lower average cost per participant.

Madison County is currently seeking a 1-year extension of the grant’s period of performance,
until March 31, 2003. We recommend the Assistant Secretary for Employment and Training not
extend the grant beyond its current termination date of March 31, 2002.

We also recommend that the Assistant Secretary recover $358,229 in grant expenditures we have
questioned. We further recommend the Assistant Secretary monitor Madison County’s grant
closeout activities, to ensure the final Federal reports submitted to ETA are accurate and that any
unspent grant funds are returned.


                            Madison County indicated it enjoyed successes with job placement
 Madison County’s           programs prior to obtaining the WtW competitive grant. However,
 Response                   the response indicates the WtW program has been plagued with
                            problems since its inception, including a lack of clear guidance on
program requirements, difficulty recruiting and retaining qualified program staff, and a
fire on March 11, 2001, which disrupted activities and destroyed WtW program records.

The County disagreed with most of our conclusions and recommendations. According to the
County’s response, many of the expenditures questioned in the report are the result of problems
at the inception of the program or the unavailability of pertinent documentation. Madison
County’s comments on questioned costs and our conclusions are presented in Attachment A of
this report.

The County also commented that participants have received substantial benefits from the
program and it continues to improve. According to the response, the County is now capable of
administering an effective program.




                                                                                                    2
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant



                                Madison County did not provide any information that caused us to
                                change the findings and recommendations in our draft report. Much
 Our Evaluation                 of the information offered in the response provided context, but did
                                not convince us funds were not misspent or that program
                                requirements were not violated.

We continue to recommend that the Assistant Secretary for Employment and Training terminate
the WtW grant on its scheduled expiration date of March 31, 2002. We also recommend
recovery of $358,229 in misspent grant funds and that the Assistant Secretary monitor Madison
County's closeout activities to ensure they are properly and expeditiously completed.




                                                                                                   3
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant




                                           BACKGROUND


                     We received a complaint alleging problems with Madison County Working
 OIG’s               Connection’s (Madison County’s) stewardship of its competitive WtW
 Involvement         grant. The complaint cited violations of Federal cost principles,
                     administrative requirements, procurement rules, poor financial management
practices and lack of internal controls. Additionally, the complaint indicated it was unlikely
Madison County would meet performance goals established in the grant.

We initially reviewed financial and performance data related to Madison County’s WtW grant
operations, as of March 2001. However, we extended our work through September 2001,
because of issues we identified relating to financial management and grant performance. We
examined grant activities that occurred from October 1, 1999 through September 30, 2001.


 Objectives of         Provisions of the Balanced Budget Act of 1997 (Act) authorized DOL to
 Welfare-to-           make $3 billion available for WtW grants. WtW grants are intended to
                       help Temporary Assistance for Needy Families (TANF) program
 Work Grants
                       recipients and certain non-custodial parents find employment. DOL’s
WtW program is closely related to the TANF grant program administered by the U.S.
Department of Health and Human Services (HHS).

During Fiscal Years (FYs) 1998 and 1999, $711 million of the $3 billion in WtW funds was
designated for award through competitive WtW grants. ETA solicited grant applications from
private and public organizations, to administer transitional assistance programs and help
hard-to-employ welfare recipients find lasting jobs that offer good prospects of self- sufficiency.
ETA judged the applications it received on a variety of published criteria that included the need
for funds in the area served by the applicant, the viability of the proposed service delivery
strategy, and likelihood of the proposed project’s success.

To date, ETA has made three rounds of competitive WtW grant awards. While the periods of
performance for the projects vary, grant funds may be available for up to 5 years beyond the
initial date of the grant award.


                          WtW Competitive grants have a “work- first” emphasis. The grants
 Principal Grant          are meant to provide welfare recipients with transitional assistance that
 Requirements             moves them into unsubsidized employment with good career potential
                          for economic self- sufficiency. Transitional assistance may be
 and Criteria
                          provided to participants through a strategy that first engages them in
employment-based activities. Basic or vocational skills training may be provided for a period of
up to 6 months pre-employment, or as a post-employment activity, in conjunction with either
subsidized or unsubsidized employment.

                                                                                                      4
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant




In addition to provisions of the Act, state and local government grantees are required to follow
general fiscal and administrative rules, that are codified in DOL regulations at 29 CFR 95. Also,
state and local organizations must follow provisions of OMB Circular A-87 (Cost Principles for
State, Local, and Indian Tribal Governments) that include requirements for determining the
allowability of costs.

OMB Circular A-87, Attachment A, Section C. 1., Factors affecting allowability of costs,
provides basic guidance for determining the allowability of costs. To be allowable under Federal
awards, cost must meet the following general criteria:

        a. Be necessary and reasonable for proper and efficient performance and
        administration of Federal awards.

        b. Be allocable to Federal awards under the provisions of this Circular. . . .

        d. Conform to any limitations or exclusions set forth in these principles, Federal
        laws, terms and conditions of the Federal award, or other governing regulations
        as to types or amounts of cost items. . . .

        j. Be adequately documented.

OMB Circular A-87, Attachment A, Section C.2 provides that a cost is reasonable if it does not
exceed that which would be incurred by a prudent person in the circumstances. In determining
reasonableness, consideration should be given to whether the cost is ordinary and necessary for
the performance of the grant award.

Program regulations found at 20 CFR 645 apply to competitive WtW grants. Provisions of
20 CFR 645.235 identify allowable administrative costs. The provisions also state that
administrative costs charged to competitive grants should be no more than 15 percent of the
grant award.


                                On October 1, 1999, Madison County received a competitive WtW
 Madison County’s               grant in the amount of $4,714,613. The purpose of the grant was for
 Competitive Grant              Madison County to place 640 non-custodial parents in unsubsidized
                                employment over a 30-month period.

Madison County’s grant application stated its objective was to place non-custodial parents in
jobs and provide support necessary for their lasting employment. Typically, non-custodial
parents are fathers or mothers who do not live in the same household as their child(ren). To be
eligible for the WtW program, non-custodial parents must generally meet three criteria: (1) they
must be unemployed, meet definitions of “underemployed” or be having difficulty making child
support payments; (2) the minor child must be receiving or be eligible for TANF or other
specified assistance; and (3) the non-custodial parent must enter into a personal responsibility



                                                                                                   5
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant



contract. In addition, Madison County also requires that the participant must be a resident of the
County.

Madison County contracted with Huntsville Rehabilitation Foundation to provide individual
assessment, job readiness and job search and placement assistance to participants.

On December 29, 1999, and on March 21, 2000, ETA modified the WtW grant to realign budget
items as requested by Madison County. The grant period, total grant amount and placement
goals remained unchanged.




                                                                                                 6
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant




                     OBJECTIVE, SCOPE AND METHODOLOGY


                    We examined program activities related to the WtW-funded competitive
 Objective          grant awarded Madison County. Our examination was completed to
                    evaluate issues contained in a complaint that alleged WtW funds were not
spent in accordance with applicable laws and regulations and the grant’s performance goals were
not being met.


 Scope                 Our audit included Madison County WtW program activities that occurred
                       from October 1, 1999 through September 30, 2001.


                      To obtain an understanding of the WtW program, we reviewed legislation,
 Methodology          regulations, grant and grant proposal material prepared by Madison
                      County. We interviewed ETA regional office staff responsible for
oversight of the WtW grants, and Madison County staff who were responsible for accounting
and administrative controls over grant expenditures and program operations.

We reviewed Madison County’s WtW grant financial and program records relating to issues
identified in the complaint. Additionally, to evaluate grant performance, we randomly selected a
sample of 35 participants from the 125 participants who were reported as receiving WtW
services as of March 31, 2001.

We reviewed files of the 14 participants who Madison County reported had obtained
unsubsidized employment, and who were working 30 or more hours per week. Participants’ files
were reviewed to determine if they were eligible for the WtW program and were adequately
served.

It was not an objective of our audit to issue an opinion on whether the WtW grant expenditures
included on the September 30, 2001, FSR Madison County submitted to ETA were accurate,
complete or reported in accordance with instructions. However, in completing our tests, it came
to our attention that accrued expenditures were not reported on the FSR as required. (See the
“Results of Audit” section of this report for a discussion of this issue.) Consequently, we
concluded the September 30, 2001, FSR was not prepared in accordance with ETA’s reporting
instructions.

Therefore, the financial portion of our audit consisted of reviewing accounting data and
supporting documentation maintained in Madison County’s general ledger system. We did not
evaluate the County’s general operations and internal controls. Our examination was limited to
the administrative and accounting controls applicable to Madison County’s WtW grant.




                                                                                                  7
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant



Our audit was conducted in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States, and included such tests as we considered necessary to
satisfy the objective of our audit. Our fieldwork began in June 2001 and continued intermittently
into February 2002.




                                                                                                8
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant



                                       RESULTS OF AUDIT


We have several concerns with Madison County’s stewardship of its grant funds and its ability to
meet performance goals. On several occasions, Federal and State requirements have not been
observed. Further, performance expectations were not met and financial reports submitted to
ETA are unreliable.

We examined WtW expenditures reported by Madison County, as of September 30, 2001. Of
$1,270,214 in reported expenditures, we identified $358,229 that did not satisfy the requirements
for allowable costs. Exhibit 1 of this report contains a summary of the costs we have questioned.


 Personnel Costs of                      The general ledger contained personnel costs of $1,837
                                         that were incurred prior to the beginning of the WtW
 $1,837 Were Improper                    grant. The grant began on October 1, 1999. However,
                                         it was charged a pro rata share of the Assistant
                                         Director’s and the Employment Specialist’s
September 1999 salaries and fringe benefit costs that totaled $1,837. Both individuals worked
part-time on WtW grant activities and charged the remainder of their time to other County
functions.

The personnel cha rges do not the meet requirements of being “reasonable,” “necessary” or
“allocable,” as required by OMB Circular A-87. Additionally, Attachment B, Section 32 of the
Circular provides that preaward costs are allowable, only to the extent that they would be
allowable if they had been incurred after the date of the award and with the written approval of
the awarding agency. Madison County did not obtain the Grant Officer’s approval for the
charges. The charges also violate the WtW grant’s “Statement of Work” that provide grant funds
may not be used to pay costs incurred before the effective date of the grant award.
Consequently, we questioned the costs as unallowable WtW grant charges.


 Equipment Purchases of                        We identified $43,553 of unauthorized or improper
                                               equipment purchases that were charged to the WtW
 $43,553 Were Unallowable                      grant. The charges involve:

            •    $14,533 for the unauthorized purchase of a van; and

            •    $29,020 for computer equipment that was improperly procured.

Unauthorized Van Purchase The WtW program purchased five vans at a cost of $102,632.
However, only four vans were authorized in the grant agreement. The fifth van was purchased
without the required prior approval of ETA’s Grant Officer. The WtW program was charged
$14,533 for the fifth van.


                                                                                                   9
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant



Part IV – Special Conditions, Section 2, of the WtW grant agreement requires prior approval of
equipment purchases:

        Awardees must receive prior approval from the DOL/ETA Grant Officer for the
        purchase and/or lease of any equipment with a per unit acquisition cost of $5,000
        or more, and a useful life of more than one year. [Emphasis added.]

Improperly Procured Computer Equipment Madison County violated competitive
procurement rules in the purchase of computer equipment costing $29,020, which we have
questioned. 1 Of the eight vendors who bid on the procurement proposal, three out-of-state
vendors’ bids were improperly rejected because they did not submit “non-resident bidder forms.”
Federal procurement rules at Title 29 CFR Part 97, Section 97.36 (c) (2), prohibits excluding out-
of-state bidders:

        Grantees and subgrantees will conduct procurements in a manner that prohibits
        the use of statutorily or administratively imposed in-state or local geographical
        preferences in the evaluation of bids. . . .

Further, OMB Circular A-87 requires that Federal grantees follow applicable state and local
procurement requirements. The Code of Alabama 1975, Section 41-16-50, provides that
purchases of $7,500 or more shall be awarded through a free and open competitive bidding
process to the lowest responsible bidder.

The other five vendors were rejected for either not submitting a bid bond, not meeting equipment
specifications in the proposal, or not bidding on all items in the proposal. We were told the
Commissioner in charge of the WtW program intended the procurement be rebid; however, a
consultant of the WtW program misunderstood the Commissioner’s instructions and negotiated a
purchase with a local vendor. The vendor’s previous bid was rejected because the required bid
bond had not accompanied the vendor’s proposal. The negotiated price was $1 less than the
vendor’s original bid, and was $786 greater than another local bidder’s proposal.

The grant agreement called for the purchase of five laptop computers and five desktop
computers. However, Madison County purchased 2 laptops and 10 desktops. Madison County
stated that the unauthorized change in the quantity of computers was an oversight.


                                     Four consultants improperly charged the WtW program
    Consultants’ Costs Were          $93,133. The WtW program entered into consulting
    Improperly Charged to            contracts with Dr. Alfred A. Jarrett, Dr. Abdul R. Jalloh,
    the Program                      Dr. Sylvanus S. Ogburia, and Thomas Colvin. We found a
                                     myriad of problems with the contracts: Specifically, daily
                                     limitations on amounts the consultants could charge the
program were not observed. The consultants were paid for services before their contracts were
executed and for activities outside the scope of the contracts. Some consultants were reimbursed
1
 The Alabama State Examiners questioned the $29,020 computer acquisition cost in their annual OMB Circular
A-133 audit of Madison County Commission, because Federal procurement rules prohibit geographical preference.

                                                                                                           10
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant



for expenses not authorized in their contracts. In addition, original contracts, which should have
contained the dates they were executed, were not available for our review. A discussion of
problems with each of the contractors follows:

Dr. Alfred A. Jarrett’s Contract

Dr. Alfred A. Jarrett was improperly paid $70,918. The improper charges consisted of:

            •    $16,512 exceeded the $400 daily maximum charge
            •    $30,549 of charges incurred before contract was executed
            •    $20,932 of charges for services not benefiting the WtW program
            •     $1,000 billed for same time periods
            •       $350 billed to 2 programs
            •     $1,575 travel expenses


Dr. Jarrett Was Paid $16,512 in Excess of the $400 Daily Limitation. Dr. Jarrett frequently
billed the WtW program more than the $400 daily maximum allowed without DOL approval.
Part IV – Special Conditions, Section 6, of the grant agreement limits consultant charges to no
more than $400 daily:

        Consultants: Consultant fees paid under this grant/agreement shall be limited to
        $400 per day without additional DOL Grant Officer approval.

Our analysis of invoices submitted by Dr. Alfred A. Jarrett during the period May 2000 to
September 2001 indicates that he was paid $16,512 for charges exceeding the $400 daily
maximum. We question $16,512 as a violation of the grant agreement. Madison County told us
that the WtW program stopped paying for consultants’ services in excess of $400 a day, effective
October 1, 2001.

Invoices submitted by Dr. Jarrett during February, March and April 2000 did not identify daily
time charges. Therefore, we were unable to determine if the $400 daily maximum was exceeded,
for periods covered by these invoices. However, we question the entire invoice totals because
they were incurred before the contract was executed as discussed below.

Dr. Jarrett Was Paid $30,549 Before His Contract Was Executed. Starting in
November 1999, Dr. Jarrett billed the WtW program for his services. However, his contract was
not executed until April 7, 2000. Madison County did not provide us with original or dated
consultant contracts. The minutes of the April 7, 2000, Madison County Commission meeting
shows that consulting contracts with Dr. Alfred A. Jarrett, Dr. Abdul R. Jalloh, Dr. Sylvanus S.
Ogburia and Thomas Colvin III were executed on April 7, 2000. Therefore, any charges by the
consultants before that date should not have been paid.

Dr. Jarrett’s February 2000 invoice totaling $14,000 was dated February 22, 2000, and indicated
it covered the period November 1999 to February 21, 2000. His March 2000 invoice for $6,000
was dated March 20, 2000, and indicated it covered March 2000. Dr. Jarrett’s April 2000

                                                                                                11
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant



invoice for $10,549 indicated it covered the period March 21, 2000 to April 19, 2000. The April
invoice does not show daily charges. Therefore, we were unable to determine to what extent, if
any, services were performed after the April 7, 2000, contract execution date. We question the
three invoices’ total of $30,549, because the services were for time periods before the contract
was executed.

The 3 invoices were not prepared in accordance with the terms of Dr. Jarrett’s contract that
provided:

        Each invoice shall be accompanied with a statement showing for each day during
        the month in which services have been performed the following:

                 a. Date services performed
                 b. A detailed description of the actual services performed
                 c. The number of hours, or fraction thereof, in which services were
                    performed on that date.

Also, the February through April 2000 invoices do not meet the requirements of OMB Circular
A-87, Attachment A, Section C. 1.(j), which provides that cost must be adequately documented
to be allowable grant charges.

The consultant’s failure to properly document invoices was also identified by the Alabama State
Examiners. In a FY 2000 audit report of Madison County Commission, the State Examiners
reported that several of the consultant’s invoices did not contain information required by the
contract, such as:

        . . . date services performed, a detailed description of the actual services
        performed, and the number of hours, or fraction thereof, in which services were
        performed on that date.

Madison County responded to the State Examiners’ audit finding by stating that the “written”
contract was not approved by the Madison County Commission until its meeting of
April 7, 2000. Madison County stated that the invoice sub mitted by the consultant on
May 29, 2000, for the period April 20 to May 29, 2000, and all subsequent invoices, contained
the information required by the contract. Madison County further stated that invoices for
consultant’ services would not be paid unless properly documented.

Dr. Jarrett Billed $20,932 for Unauthorized Services That Did Not Benefit the WtW
Program. Our review of Dr. Jarrett’s invoices indicated that many of the services he billed the
program for completing were either not consistent with his contract, were not authorized by the
WtW grant agreement, or did not benefit the WtW program.

The scope of work in Dr. Jarrett’s contract included “Long-Term Tracking,” “Evaluation” and
“Financial Self-Sustenance.” Evaluation was defined to include the following activity:
“Conduct training in grant writing, time management and cultural diversity in the work place.”
Grant writing was not an allowable WtW activity.


                                                                                                 12
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant




The scope of work describes “financial self-sustenance” as:

        Provide technical support and participate in the solicitation of funds for the self-
        sustenance of the program during the program performance period.

The major emphasis of financial self-sustenance was to secure funding either from Federal, State
or local sources to ensure that the Working Connection has a continuing funding base after the
WtW grant ends. “Solicitation of funds” is not an allowable activity under the grant.

Dr. Jarrett’s invoices indicated that he charged for conducting grant workshop training and
financial sustenance with the Madison County Working Connection. Dr. Jarrett charged for
working on an extension of the WtW program, due to expire on March 31, 2002. These charges
are not allowable or allocable to the WtW grant, because the grant agreement was for a 30- month
period, and the services should benefit the program during that 30- month period.

Dr. Jarrett’s invoices shows that he devoted extensive time working on the Alabama Fatherhood
Empowerment Program and Alabama Family Empowerment Program. These are not authorized
WtW functions and should not be paid for with WtW funds.

In summary, the services we have questioned that were either not authorized or did not benefit
the WtW program, as discussed in this section, include:

                 Financial Self-Sustenance                                   $2,580
                 Statewide WtW Program                                        2,326
                 Alabama Family Empowerment Program                           5,666
                 Alabama Fatherhood Empowerment Program                       8,102
                 Morgan County WtW Expansion                                    536
                 WtW Competitive Grant Extension                              7,476
                 Program Sustenance                                           1,750
                 Subtotal                                                   $28,436
                 Less Amount Also Questioned Because Charges
                  Exceeded $400 a Day                                        (7,504)
                 Net Questioned Costs                                       $20,932

Dr. Jarrett Billed the WtW Program $1,000 for the Same Time Periods. We examined
invoices submitted by Dr. Jarrett and found that on three occasions (May 17, 2000,
January 11, 2001, and February 23, 2001), the WtW program was billed for the same time
periods. Consequently, the WtW program overpaid Dr. Jarrett by $1,000. We have questioned
the duplicate charges.

Dr. Jarrett Billed Two Programs for the Same Time Period. On June 15, 2000, Dr. Jarrett
billed the WtW program $350 for the same time period that he billed the Parenting Education
Training Program (PET). We have questioned the $350 overlapping charge.




                                                                                                 13
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant



The WtW Program Paid $1,575 of Dr. Jarrett’s Travel Expenses. The WtW program
improperly paid $1,575 of Dr. Jarrett’s travel expenses. The travel expenses consisted of meals,
lodging, taxi and airline fares. Dr. Jarrett’s contract does not provide for payment of travel
expenses. Therefore, the payments were improper.


Dr. Abdul R. Jalloh’s Contract

Dr. Abdul R. Jalloh was improperly paid $6,150, consisting of:

            •    $725 in payments that exceeded the $400 per day maximum
            •    $3,500 of charges that were incurred before the contract was executed, involved
                 services that did not benefit the WtW program and were not properly documented
            •    $1,925 of charges incurred after the contract was executed that did not benefit the
                 WtW program

Dr. Jalloh Was Paid $725 in Excess of the $400 Daily Limitation. Between July 2000 and
January 2001, Dr. Abdul Jalloh was paid $725 in excess of the $400 daily limitation, which
violated the grant agreement.

Dr. Jalloh Was Paid $3,500 Before His Contract Was Executed. Dr. Jalloh’s first invoice
totaling $3,500, was dated April 20, 2000, and was for services performed from March 21 to
April 19, 2000. Because Dr. Jalloh’s contract was not executed until April 7, 2000, charges prior
to that date should not have been paid. The invoice does not show daily charges. Therefore, we
were unable to determine to what extent, if any, services were performed after the April 7, 2000,
contract execution date. We question $3,500 of costs incurred prior to approval of the contract.

The costs are also questioned because Dr. Jalloh charged the WtW program to assist Dr. Jarrett
with establishing a National Tracking Directory of WtW services. Establishment of a National
Tracking Directory of WtW services was not within the scope of Dr. Jalloh’s contract, was not
provided for in the grant agreement and did not benefit the WtW program.

We also question the contract’s costs because the invoice did not provide necessary details, such
as the days that were worked, the hours worked each day or the services that were performed.
Dr. Jalloh’s contract required that invoices show each day worked, a detailed description of
services performed and the number of hours worked each day.




                                                                                                  14
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant




Dr. Jalloh Was Paid $1,925 For Services Not Benefiting the WtW Program. Dr Jalloh’s
July 22, 2000, invoice shows that he charged $1,925 for editing the WtW Directory. As
previously stated, developing a National Tracking Directory of WtW services was not within the
scope of Dr. Jalloh’s contract.


Dr. Sylvanus S. Ogburia’s Contract

Dr. Sylvanus S. Ogburia was improperly paid $15,265. Dr. Ogburia, a consultant doing business
as Magnet Business Solutions, submitted three invoices and was paid a total of $15,265. The
services performed were not consistent with the scope of work stated in his contract and were not
activities provided for in the grant agreement. Further, some billings were in excess of daily
limitations, were incurred before the contract was effective, and were not adequately
documented.

According to the contract’s scope of work, Dr. Ogburia was to:

    1. Conduct 6 “Business Plan Development” workshops.
    2. Conduct 10 workshops on “How to start and Run a Small Business.”
    3. Conduct 10 workshops on “Packaging of Loan Application.”

Dr. Ogburia billed for services that were not included in the contract’s scope of work. The first
invoice for $5,500 was for conducting research to establish a micro- loan fund for the Madison
County Working Connection. Dr. Ogburia also billed $800 on April 2, 2000, which was before
his contract was approved on April 7, 2000. The invoice shows that Dr. Ogburia also billed
$2,200 more than the $400 daily limitation.

The second invoice totaling $2,800 was for meetings held to discuss establishment of a micro-
loan fund, and development of a proposal to be submitted by the Coalition On At-Risk Minority
Males (COARMM). COARMM is a separate program administered by the Madison County
Commission. The invoice does not show daily time charges.

The third invoice, for $6,965, was to design and print company logos, marketing brochures and
letterheads for participants, and providing training on marketing strategies. The invoice does not
show daily time charges. The invoice included $1,965 of printing cost, which was not provided
for in the contract.

We question the entire $15,265 paid to Dr. Ogburia because the services provided were not those
specified in his contract. No documentation was provided to us that indicated Dr. Ogburia
conducted any of the 26 workshops he was to deliver. Also, the development of a proposal for
COARMM was not an authorized WtW activity.

In addition, we have questioned certain costs for other reasons. We found $800 in billings
occurred before the contract was executed, $2,200 was paid in excess of the $400 daily cost


                                                                                                15
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant



limitation, $1,965 of printing cost were not provided for in Dr. Ogburia’s contract, and neither
the second nor third invoices, totaling $9,765, describe any of the daily activities for which
Dr. Ogburia billed the program, as is required by the contract.


Thomas Colvin’s Contract

The Working Connection entered into a contract with Thomas Colvin III, who was doing
business as TC3 Fine Arts. According to the contract, TC3 was to provide “entrepreneurial
education through (commercial art)” to participants. However, the WtW program was billed
$800 for the creation of a promotional brochure and establishment of a computer lab. These
services were outside the contract’s scope of work. Further, we were provided no documentation
indicating that any WtW program participants were trained under this contract. Also,
documentation indicates the WtW program terminated TC3’s services, as of January 18, 2000.
However, this date preceded the TC3’s contract’s effective date of April 7, 2000.


                                             We identified a variety of problems with five additional
 Several Contractors’                        Madison County WtW program contractors. We have
 Costs Totaling $205,835                     questioned a total of $205,835 related to the contractors,
 Are Questionable                            as discussed in the following section of this report.


COARMM Charged the WtW Program $29,000 for In-kind Services

We questioned $29,000 of improper payments made to COARAMM. Madison County entered
into a Memorandum of Understanding (MOU) with COARMM, to provide mentors and tutors to
help coach and otherwise assist WtW program participants. As previously discussed, COARMM
delivers another Madison County program.

According to the MOU, the assistance was to be an “in-kind” contribution to the WtW Program.
However, rather than contributing the services, COARMM charged the WtW program $29,000.
The WtW program did not have a contract with COARMM and payments to COARMM were
not provided for in the grant agreement or budget.


Perfection Plus Business Was Improperly Paid $4,822 by the WtW Program

Madison County paid an employee of COARMM, who was working for Perfection Plus
Business, to design and print a multi-color promotional brochure for the WtW program.
COARMM is a nonprofit organization’s activity of Madison County District Six, which also
administers the WtW program. Perfection Plus Business submitted two invoices and was paid a
total of $4,822.




                                                                                                      16
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant




We questioned the $4,822 paid to Perfection Plus Business, because the procurement does not
offer the appearance of an arms- length transaction. Further, the Alabama State Examiner’s audit
report on Madison County’s activities, for FY 2000, completed under requirements of OMB
Circular A-133, commented that the transaction may conflict with State ethics provisions.


Huntsville Rehabilitation Foundation (HRF) Improperly Charged the WtW
Program $25,963 for Services

Payments for Individuals Who were not WtW Program Participants We reviewed HRF’s
invoices and found that Madison County paid for services provided to individuals who were not
WtW program participants. A majority of these clients received “job coaching.” The total
amount charged the WtW program for individuals who were not WtW program participants was
$3,556. We question the costs because they were not allocable to the WtW program.

Excessive Job Coaching Services We also identified participants who received “job coaching”
services in excess of the maximum amount of services specified in HRF’s contract. HRF’s
contract provided for job coaching based on the type of assessment performed, with a maximum
of ten days job coaching.

We identified 14 participants who received substantially more than 10 days of job coaching. The
WtW program paid $22,407 for coaching in excess of 10 days. The participants’ job coaching
costs we have questioned involved individuals who received an average of 35 days of job
coaching. We noted one participant received 79 days of job coaching. We do not believe it was
reasonable or necessary to provide job coaching services beyond the 10 days stated in the
contract. We question the $22,407 as being excessive and beyond the contract guidelines.


Two Colleges Charged the WtW Program $146,050 Without Providing Adequate
Documentation of Activities

Alabama A&M University Madison County entered into a $200,000 contract with the
Alabama A&M University Social Work Department. The Social Work Department was to
provide 30 graduate and undergraduate students as caseworkers and conduct two workshops for
the Madison County Working Connection’s “target population.” The monies were to be used
specifically for student “scholarships” and workshops. The student case workers were to work
20 hours a week.

Invoice Number 1, billed theWtW program $25,375 for student support and workshop/training,
related to the Spring 2000 semester. Documentation for student support included a listing of
students and their tuition charges. There were no timesheets that indicated when or where the
students worked, the hours they worked, or what services they performed for WtW participants.




                                                                                              17
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant




Documentation for workshop/training consisted of a listing of payments to two Alabama A&M
employees who were on the workshop agenda. The sign- in sheet shows that only WtW staff
attended the workshop, although the contract provided that the workshops would be for the target
population.

Madison County paid $25,375 to Alabama A&M on May 18, 2000, although the workshop was
not held until June 23, 2000.

OMB Circular A-87 requires that grantee charges be adequately supported. The Alabama State
Examiners, in their annual audit of the Madison County Commission, questioned expenditures of
$25,375 because the cost was not adequately supported.

Invoice Number 2, billed theWtW program $54,747 and consisted of student support costs
totaling $42,850 and workshop/training costs of $11,897 for the Fall 2000 semester. The
documentation consisted of a listing of students’ tuition and fees, invoices for books and
supplies, and a listing of payments to two Alabama A&M employees. Timesheets were
submitted for only 8 days of the entire fall semester. Consequently, we cannot determine if the
students worked 20 hours each week, as required by the contract. The only activities identified
on the time sheets were entries for some students that indicated they were “tutoring.” Tutoring
was not an authorized activity under the contract.

Invoice Number 3, billed the WtW program $38,428 for student support and workshop/training.
Documentation consisted of a listing of student tuition and fees, invoices for books and supplies,
and a listing of payments to two Alabama A&M employees. Timesheets for the Spring 2001
semester did not identify what activities the students worked on, with the exception of some
students stated they were tutoring, while other students indicated they were performing research
at Alabama A&M computer lab or the Huntsville Public Library. For the most part, the students
did not work the required 20 hours each week. There was no documentation indicating that any
workshops were held.

Madison County told us that student case workers were assigned to assist in researching funding
opportunities for the self-sustenance of the WtW program. This is not an allowable function
under the WtW program.

We question the $118,550 paid to Alabama A&M University because the costs were not
adequa tely supported and some students performed functions not authorized for the WtW
program.




                                                                                                  18
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant



Oakwood College Oakwood College entered into a contract with the WtW program to provide
student case workers. Oakwood College submitted two invoices and was paid $27,500 for
student tuition, books, and coordinator fees. The documentation consisted of an invoice that
listed the students’ names, the total numbers of hours they worked, and the total amount they
were paid. There were no timesheets to validate when students worked, where they worked, or
what services they performed for the WtW participants.

We question the $27,500 because documentation was insufficient to support the cost.


 Fourteen Percent of                We reviewed a sample of 35 participant files to determine if
 Sampled Participants               they contained evidence the participants met the eligibility
                                    criteria set forth at 20 CFR Part 645 and Madison County’s
 Were Ineligible                    added criteria for non-custodial parents. Five of the 35
                                    participants (14 percent) either did not meet the eligibility
criteria or there was not enough documentation available for us to make a determination.


Reasons we could not confirm the participants were eligible included:

            •    The participant’s children lived with their grandmother and there was no
                 documentation indicating the participant gave up custody. Thus, we could not
                 confirm that participant was a non-custodial parent.

            •    Although the participant was under a court order to pay child support and the
                 other parent has custody, documentation in the file indicates the child was living
                 with the participant, who has provided all of the child’s needs since June 1996.

            •    The participant is totally disabled, receives oxygen 24 hours a day and is unable
                 to work. The participant is not eligible for WtW because he is not available for
                 work.

            •    The participant was determined eligible by the WtW program because he was
                 underemployed. The WtW program did not verify his income. Alabama
                 Unemployment Insurance wage history files indicate higher earnings.

                 The WtW program paid $6,900 for the participant to receive Mic rosoft
                 Certification Training. The training period was to last almost 8 months, which
                 exceeds the 6- month training maximum allowed by WtW regulations. The
                 participant already possessed a Bachelors degree in Mechanical Engineering
                 Technology.

            •    Other than a handwritten note, there is no documentation in the file verifying a
                 participant’s child was on Medicaid and receiving food stamps in Texas. Thus,
                 we could not determine if the participant was eligible.


                                                                                                     19
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant



                 The WtW program paid $3,478 in tuition and fees for the participant to begin a
                 Bachelors degree program in Theology. Completion of the program will take
                 longer than 6 months. The participant already possessed a Bachelors degree in
                 Political Science.


The WtW regulations (29 CFR 645.220(b)) state that training should not exceed 6 months as
follows:

        Vocational educational training or job training. A participant is limited to six
        calendar months of such training if (s)he is not also employed or participating in
        an employment activity, as described in paragraph ( c ) of this section. ( c )
        Employment activities which consist of any of the following: (1) Community
        service programs; (2) Work experience programs; (3) Job creation through
        public or private sector employment wage subsidies; and (4) On-the-job training.

We question $18,356 ($4,485 of this amount is also included in costs questioned for excessive
job coaching services) paid by the WtW program for services provided to the five participants
for whom we determined were ineligible or documentatio n was insufficient to establish
eligibility.

                                                   Grant recipients must provide ETA with quarterly
 Expenditure Reports                               FSRs that indicate cumulative accrued expenditures.
 Were Not Prepared in                              However, expenditures reported on Madison
 Accordance With Requirements                      County’s FSRs were not reported on the accrual
                                                   basis.

For our audit period, we found that Madison County had not followed ETA’s reporting
instructions in preparing the FSRs. Under the accrual basis of accounting, expenditures are
recognized when they are incurred. However, the County did not prepare the FSRs on an accrual
basis. Rather, the County maintains a cash-based accounting system. Consequently, an item’s
cost is recorded as an expense only after it has been paid. The Chief Accountant for Madison
County stated that expenditures were accrued only at the end of each fiscal year (September 30).
We found this did not occur.


                                       Madison County has not met performance goals
 Program Performance                   stipulated in the grant agreement. Madison County
 Goals Have Not Been Met               received $4,714,613 to place 640 participants in
                                       unsubsidized employment, during the 30- month period
that began on October 1, 1999. After 24 months of operation only 204 recipients were reported
as served by Madison County’s Work-First Program, and only 33 of the participants served had
been reported as placed in unsubsidized employment.

Assuming a consistent placement rate throughout the grant period, about 80 percent, or 512 of
the anticipated placements should have occurred by September 30, 2001. However, the 33


                                                                                                   20
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant



participants Madison County reported as having placed represented only about 5 percent of the
640 participants that the grant proposal said would be placed.

There are several reasons for the low level of performance. The client base of non-custodial
parents in Madison County did not materialize. The grant proposal indicated that the
Department of Human Resources Child Support Division reported there were 1,830 non-
custodial parents associated with TANF recipients as of February 1999. The WtW project was
expected to serve at least 50 percent of that population over the 30- month grant period.

Madison County officials told us that the high turnover of case managers, the need to replace key
program personnel, and a late start in beginning operations all contributed to the low level of
performance. Very few participants were recruited from the TANF agency, although TANF was
supposed to be a partner from whom non-custodial parents could be recruited. A high number of
non-custodial parents did not want to participate in the program, because they had to commit to
paying child support and provide personal information about themselves. Some non-custodial
parents referred by the court system disappeared after enrolling in the program.

Madison County used five satellite centers to recruit non-custodial parents. Very few
participants were recruited from the satellite centers. The centers were staffed by a case manager
who spent one day a week at each of the five centers.


                               Madison County has placed only a fraction of the individuals
 Placement                     originally envisioned and the cost for each placement is over 5
 Costs Are High                times higher than that stated in the grant proposal. According to
                               the grant agreement, Madison County proposed to place 640 non-
custodial parents in unsubsidized employment at a cost of about $7,376 each ($4,714,613 divided
by 640). Based on reported cost as of September 30, 2001, the average cost for each of the 33
participants reported as placed had risen to $38,100.


                              The variety of problems we identified with fiscal and program
                              administration caused us to question Madison County’s capability to
   Conclusion                 operate an effective program and the advisability of extending the
                              grant beyond March 31, 2002.

Madison County was awarded a grant based upon its representations in the grant proposal that:

        •   A local program was needed.

        •   Madison County had the capacity to administer an effective program.

        •   A much larger number of non-custodial parents would be served.

        •   The average cost for placing each participant would be much lower.


                                                                                                    21
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant



Had Madison County’s proposal more accurately reflected the results it actually achieved, it is
uncertain it would have been awarded a grant.


RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training recover $358,229 in
grant expenditures we have questioned.

We also recommend that the Assistant Secretary not extend the WtW grant past its scheduled
expiration date of March 31, 2002. The variety of problems with fiscal and program
administration cause us to question Madison County’s capability to operate an effective program.

We further recommend the Assistant Secretary monitor Madison County’s grant closeout
activities to ensure the final Federal reports submitted to ETA are prepared in accordance with
reporting instructions, accurate, contain only allowable expenditures, and that any excess grant
funds that may be in Madison County’s possession are returned to the Department.


MADISON COUNTY’S COMMENTS ON THE DRAFT AUDIT REPORT

Madison County’s response indicated its past success in finding jobs for needy individuals
caused it to believe the WtW grant program was a “natural fit.” However, the County found
non-custodial parents were much more difficult to recruit and employ than was envisioned.
According to the response, since the program’s inception, it has been troubled by inconsistent
DOL guidance, turnovers in key program management positions, and a fire that disrupted
services and destroyed program records.

Madison County responded to each audit finding and questioned costs. Generally, the County
disagreed with our findings. The response argues problems identified in the report are the result
of misinterpretations, occurred because of mitigating circumstances, or because pertinent
documentation was unavailable. A discussion of the County’s response to each questioned cost
and our conclusion is presented as Attachment A of this report.

Concerning our finding that Madison County had not reported the program’s financial activities
in accordance with reporting requirements, the County indicted it prepares accruals once a year.
Regarding the program’s poor performance and high costs, the County commented that the
program has done much good, has been improving since January 2001 and the County now has
the capability to administer an effective program. The response indicates the high cost per
placement is a reflection of the difficulty in serving non-custodial parents.

Madison County’s complete response, absent the attachments, is presented as Exhibit 2 of this
report. The voluminous attachments include a variety of personal identifying information
protected from public disclosure by the Privacy Act. However, we have transmitted a copy of
Madison County’s entire response to ETA, for use by the Grant Officer in resolving the findings.


                                                                                                   22
U.S. Department of Labor – Office of Inspector General
Audit of Madison County’s Competitive Welfare-to-Work Grant



Regarding improper reporting of the WtW program’s financial activities, the County may
determine accruals for purposes of preparing the County’s financial statements. However, none
of the quarterly WtW financial reports submitted to ETA contained accruals. Consequently, they
do not contain accrued expenditures and have not been prepared in accordance with reporting
instructions.


OIG’S CONCLUSIONS

As the response indicates, factors such as vacant management positions, frequent staff turnover
and a difficult client population have contributed to the program’s difficulties. However,
Madison County submitted a grant application, asserting it was capable of operating a successful
WtW program. The County was responsible for properly managing the program and achieving
the goals proposed in its grant application.

Much of the information offered in the response is circumstantial justification for misspent funds
and lack of compliance with WtW requirements. The response did not provide additional
information related to the questioned costs that would impact our findings and recommendations.

The response indicates Madison County now has the capability of delivering an effective
program. However, continuing issues with the program’s design, uncertainties involving the
number of non-custodial parents available and willing to be served, and the likelihood that small
numbers of participants will be placed in jobs at an extremely high average cost, cause us to
recommend the Assistant Secretary for Employment and Training terminate the grant on its
scheduled expiration date of March 31, 2002. Also, we continue to recommend the Assistant
Secretary recover $358,229 in misspent grant funds.




                                                                                               23
U.S. Department of Labor – Office of Inspector General
                                                                            ATTACHMENT A

                 MADISON COUNTY’S RESPONSE
     AND OIG’S CONCLUSION ON SPECIFIC QUESTIONED COSTS


Following is Madison County’s response to specific questioned costs in the audit report and our
conclusions.

Questioned personnel costs of $1,837 paid prior to the grants inception

Madison County’s Response: Madison County stated that they had not been able to confirm
the payments, however payments should not have been made for periods prior to
October 1, 1999.

OIG’s Conclusion: County payroll records indicate the employees involved were paid for
periods prior to grant’s October 1, 1999 effective date and the costs were charged to the WtW
program. We had discussed this matter in previous correspondence with Madison County and
provided detailed information.

Questioned costs of $14,533 for the unauthorized purchase of a van

Madison County’s Response: Madison County indicated the van was vitally needed, used
exclusively in the WtW program and was purchased within the amount budgeted for vans in the
grant.

OIG’s Conclusion: The Grant Agreement that Madison County signed specified that vehicles
would not be purchased without the prior approval of ETA’s Grant Officer and the purchase of 4
vans was approved. Although Madison County indicated the fifth van was vitally needed and
that two automobiles were also used for transportation purposes, we noted that only 33
participants had been reported as placed in unsubsidized employment, as of September 30, 2001.
We question whether 7 vehicles would be needed to transport the small number of participants.

Questioned costs of $29,020 for improperly procured computer equipment

Madison County’s Response: Madison County described errors and misunderstandings that
occurred during the procurement process. According to the response, the computers were vitally
needed, used exclusively in the WtW program and were purchased within the amount budgeted
for computers in the grant.

OIG’s Conclusion: Madison County acknowledged that Federal procurement rules were not
followed in acquisition of the computer equipment. We continue to recommend recovery of
$29,020 spent on improperly procured equipment.
                                                                             ATTACHMENT A

Questioned costs of $17,237 paid to consultants in excess of the $400 daily maximum

Madison County’s Response: The response indicates turnover in management personnel
created the necessity of relying more heavily on consultants than originally anticipated. Madison
County also commented total payments to the four consultants did not exceed the total amount
set out in the grant application or in the consultants’ contracts. The response also indicates,
beginning September 2001, the $400 daily limitation has been strictly enforced.

OIG’s Conclusion: ETA should recover amounts already paid in violation of the grant
limitation.

Questioned costs of $34,849 paid to consultants before their contracts were executed

Madison County’s Response: Madison County indicated turnover and vacancy of the
Executive Director’s position resulted in formal written contracts with the consultants not being
executed, when the WtW program began. The response indicates the contracts were approved on
April 7, 2000, but not signed. According to the response, it was intended that the contracts cover
all consultants’ services from October 1, 1999, the date of the grant’s inception.

OIG’s Conclusion: Madison County acknowledged that consultants’ contracts were not
executed for over 6 months after the program began. The response does not provide an
explanation of why the contracts were not dated. Payments made to consultants without benefit
of a contract were improper and should be recovered.

Questioned costs of $38,122 paid to consultants for services not benefiting the WtW
program

Madison County’s Response: The County responded, “With all due respect to the auditors, it
would seem that this is a decision more properly made by the grant officials with the
Employment and Training Administration.” According to the response, activities we reported as
not benefiting the WtW program, including solicitation of funds and development of a National
Tracking Directory, are beneficial and may be interpreted as authorized activities. The response
also indicated one consultant’s contract was submitted to an ETA representative for review, and
no feedback was received indicating that the services were unallowable.

OIG’s Conclusion: We disagree with Madison County’s suggestion that OIG should not
determine if consultants’ services were outside the scope of their contracts, or benefited the WtW
program. Such evaluations are within the scope of our authority, as identified in the Inspector
General Act of 1978, as amended. The Act authorizes the OIG to audit and evaluate DOL
programs and operations, and to report its findings to the Secretary and the Congress.
                                                                             ATTACHMENT A


Neither grant writing nor financial self-sustenance are allowable grant activities. Development
of a National Tracking Directory of resources is outside the scope of the WtW grant, and
duplicates information readily available at no charge from many other sources. Activities that
benefited other programs are obviously not allowable uses of WtW funds.

Although we disagree, Madison County’s argument that the consultants’ work was within the
scope of their contracts is irrelevant. As discussed elsewhere in this report, the consultants
worked many months before their contracts were developed and executed. We noted that one
consultant was terminated before his contract was formally executed.

Questioned costs of $1,000 paid to consultant for same time periods, and questioned costs
of $350 for billing two programs for the same time period

Madison County’s Response: The payments should not have been made. The consultant has
been requested to pay back the funds.

OIG’s Response: The funds should be promptly returned to the U.S. Department of Labor.

Questioned costs of $1,575 paid for consultant’s travel expenses

Madison County’s Response: The response acknowledges reimbursement of travel expenses
were not approved in the consultant’s contract but the grant application includes a budget for
travel.

OIG’s Conclusion: Travel expenses were not authorized in the consultants’ contracts and are
not allowable. Such expenses are already factored into consultants’ billing rates.

Questioned costs of $15,265 improperly paid to Dr. Sylvanus S. Ogburia

Madison County’s Response: “Dr. Ogburia has been advised to seek a retroactive modification
of his contract.”

OIG’s Conclusion: Rather than advising Dr. Ogburia to seek a retroactive modification of his
contract, Madison County should promptly return $15,265 to the U.S. Department of Labor that
was improperly paid the consultant. It is inappropriate to seek a “retroactive contract
modification” for unauthorized activities. Regardless, the services performed were not within
the scope of the grant agreement and were not allowable WtW activities.
                                                                              ATTACHMENT A

Questioned costs of $800 improperly paid to Thomas Colvin

Madison County’s Response: Services provided by Mr. Colvin were within the scope of his
contract.

OIG’s Conclusion: We disagree. Services provided by Thomas Colvin were outside the
contract’s scope of work. We were not provided documentation that participants were trained, as
called for in the contract. Regardless, Madison County’s argument that the services were within
the contract’s scope of work is moot, since the consultant was terminated before his contract was
executed. As previously stated, all payments to consultants without benefit of a contract are
improper.

Questioned costs of $29,000 paid to COARMM for in-kind services

Madison County’s Response: The response indicates “COARMM complied with the in-kind
contributions in the areas of mentoring, tutoring, and coaching.” According to the response, the
funds were used to recruit non-custodial parents through the court system.

OIG’s Conclusion: Madison County did not disagree that COARMM was paid $29,000,
although the grant agreement provided that the services would be in-kind contributions.
Madison County also did not dispute that the funds were paid without the benefit of a contract,
and were not provided for in the grant agreement.

COARMM was paid for recruiting WtW participants from the court system. However, the grant
agreement identified contacts in the court system as sources of referral for non-custodial parents.
Consequently, it is not apparent the payments to COARMM were necessary. We continue to
recommend Madison County promptly repay the $29,000 to the U.S. Department of Labor.

Questioned costs of $4,822 paid to Perfection Plus Business

Madison County’s Response: The transaction was arms- length and did not violate Alabama
State Ethics Law.

OIG’s Conclusion: The vendor was an employee of COARMM and does not have the
appearance of an arms-length transaction. In response to this report, Madison County discussed
COARMM’s close working relationship with the WtW program. Madison County, in its
administration of the WtW program, had a fiduciary responsibility to avoid situations that
created a conflict of interest, or the appearance of a conflict of interest.
                                                                              ATTACHMENT A

Questioned costs of $3,556 paid to Huntsville Rehabilitation Foundation for services
provided to individuals who were not WtW participants

Madison County’s Response: The individuals were part of a large pool of prospective
participants.

OIG’s Conclusion: The WtW program should not have been charged for services provided to
individuals who were not WtW participants. The $3,556 should promptly be repaid to the U.S.
Department of Labor.

Questioned costs of $22,407 paid to HRF for excessive job coaching services

Madison County’s Response: The services were not excessive, because the needs of any given
individual is an unknown variable. Job coaching levels spelled out in the contract were never
intended to be absolutes.

OIG’s Conclusion: The contract provisions allow for up to 10 days of job coaching for any
participant. As discussed elsewhere in this report, the costs we questioned were for participants
who received an average of 35 days (280 hours) of job coaching. We noted that one individual
received 79 days (632 hours) of job coaching. We do not believe it was reasonable to provide
participants job coaching that exceeded expectations by such large margins. We also question
the effectiveness of excessive job coaching assistance.

Questioned costs of $146,050 paid to two colleges without adequate supporting
documentation

Madison County’s Response: Student case workers daily time sheets were destroyed in a
March 11, 2001 fire. Madison County provided us a sample of Alabama A&M weekly activity
reports for student case workers and interns, and a samp le of time sheets maintained by the
Oakwood College field supervisor.

OIG’s Conclusion: Although Madison County stated that fire destroyed student case workers’
timesheets, some of the invoices we reviewed included attached timesheets. The timesheets
indicated most of the students were not working the required 20 hours each week. Other
timesheets showed students were tutoring or performing research at Alabama A&M computer
lab or the Huntsville Public Library. According to Madison County, the students were
researching funding opportunities for the self-sustenance of the WtW program. As stated
elsewhere in this report, the WtW program was already funded, and such functions are not
allowable.

Madison County’s response included a sample of “Weekly Field Practicum Activity Reporting
Sheets” said to have been used by Alabama A&M University Department of Social Work to
record students’ activities. For a variety of reasons, we cannot accept them as adequate
                                                                             ATTACHMENT A

documentation. The sheets do not inc lude all the student case workers said to have been
involved with WtW clients. Further, many of the activities case workers performed cannot be
discerned or case workers appear to have worked on other programs or activities. Also, some
sheets indicated the students did not work the required 20 hours per week. Several are unsigned
by the supervisor or not dated. One of the student case workers’ sheets is labeled “sample.”

Madison County also provided us samples of daily logs that were maintained by the Oakwood
College Field Supervisor. However, in previous correspondence, Madison County told us that:

       Initially, under the program’s previous administrator, Oakwood students were not
       maintaining proper documentation of activities on time sheets for work
       performed. . .

Regardless, we have the same concerns with the completeness and relevance of the Oakwood
College daily logs as with the Alabama A&M documentation. Many of the activities are not
discernable or the activities identified do not appear to have any relevance to the WtW program.
For example, one student described his activities, from 8 a.m. to 5 p.m., in the “Daily Tasks and
Learning Experiences” section of the log as “today I finished up my homework and spoke to
some D.H.R. case managers about the Alabama A&M football game.”

We continue to question $146,050 paid to the two colleges without adequate supporting
documentation.

Fourteen Percent of Sampled Participants Were Ineligible

Madison County’s Response: Madison County indicated the y were unable to confirm that 5
sampled participants, whose associated WtW costs totaled $18,356, were ineligible for the
program, because the participants’ names were not provided in the audit report.

OIG’s Conclusion: Their names were not included in the report because provisions of the
Privacy Act prohibit us from disclosing participants’ names or other personal identifying
information. However, we provided the names of the ineligible participants to Madison County
in previous correspondence and received a detailed response on each participant. Further,
Madison County program officials were invited to contact us if they had any questions about the
draft audit report. We received no inquiries.

Although Madison County said that they were unable to confirm our assertion that 5 (14 percent)
of the sampled participants were ineligible because we did not provide participant names, their
response indicates they have taken corrective action and are no longer serving 2 of the
individuals. According to the response "After e- mailing the GOTR for interpretation of
regulations corrective actions were implemented immediately." Consequently, we continue to
question $18,356 paid for program services provided the five participants.
                                                                      EXHIBIT 1


            SUMMARY OF QUESTIONED COSTS


FINDING                                                 QUESTIONED
Cost Incurred Before the Grant Began                       $1,837
Unauthorized Van Purchase                                  14,533
Improperly Procured Computer Equipment                     29,020
Dr. Alfred A. Jarrett                                      70,918
Dr. Abdul Jalloh                                            6,150
Dr. Sylvanus S. Ogburia                                    15,265
Thomas Colvin                                                 800
COARMM                                                     29,000
Perfection Plus Business                                    4,822
Huntsville Rehabilitation Foundation (HRF)*                25,963
Alabama A&M University                                    118,550
Oakwood College                                            27,500
Ineligible Participants                                    18,356
Less $4,485 also questioned because HRF provided over
                                                           (4,485)
10 days of job coaching services*
NET QUESTIONED COSTS                                     $358,229


   *WtW grant funds of $4,485 paid to HRF were questioned for more than one reason
                                                                                      EXHIBIT 2


                       TEXT OF MADISON COUNTY’S
                  RESPONSE TO THE DRAFT AUDIT REPORT
                              (FOLLOWING THIS TITLE PAGE)




Madison County’s response to the draft audit report, absent the attachments, is presented in its
entirety. The attachments have been omitted because they included voluminous material that
included a variety of personal identifying information protected from public disclosure by the
Privacy Act. However, we have transmitted a copy of Madison County’s entire response to
ETA, for use by the Grant Officer in resolving the findings.
